Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





        MEDICARE PAYMENTS 

  FOR 2003 PART B MENTAL HEALTH 

             SERVICES:

 MEDICAL NECESSITY, DOCUMENTATION, 

            AND CODING





                    Daniel R. Levinson

                    Inspector General 


                       April 2007

                     OEI-09-04-00220

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y                                           



                  OBJECTIVE
                  To determine the extent to which Medicare Part B mental health
                  services met Medicare’s coverage criteria and were coded correctly
                  in 2003.


                  BACKGROUND
                  Medicare Coverage of and Reimbursement for Mental Health Services
                  Medicare’s Supplementary Medical Insurance (Part B) covers
                  physicians’ services, outpatient care which also includes mental health
                  services, and other services not covered by Medicare’s Hospital
                  Insurance (Part A). General provisions of the Social Security Act (the
                  Act) govern Medicare reimbursement of all services, including mental
                  health services. In general, beneficiaries are responsible for
                  coinsurance of 20 percent of the approved amount for most Part B
                  services; however, section 1833(c) of the Act limits payments to
                  62.5 percent of the expenses (Medicare-approved amount) for mental
                  health services. Section 1862(a)(1)(A) of the Act states that “no
                  payment may be made under Part A or Part B for any expenses
                  incurred for items or services which are not reasonable and necessary
                  for the diagnosis or treatment of illness or injury or to improve the
                  functioning of a malformed body member. . . .” Section 1833(e) requires
                  that providers furnish “such information as may be necessary in order
                  to determine the amounts due” to receive Medicare payment.

                  Mental health services covered by Medicare include psychotherapy,
                  psychiatric pharmacologic management, and evaluation and
                  management. Mental disorders that occur most frequently for
                  Medicare beneficiaries include affective psychoses, senile psychotic
                  conditions, schizophrenic disorders, and neurotic disorders.
                  Psychiatrists, clinical psychologists, licensed clinical social workers,
                  nurse practitioners, clinical nurse specialists, and physician
                  assistants typically render mental health services. In addition,
                  licensed and unlicensed staff can furnish mental health services
                  “incident to” the billing practitioner’s professional services. In these
                  cases, the services must be furnished to noninstitutionalized patients
                  under the direct supervision of the billing practitioner (or another
                  physician).

                  In 2003, the Centers for Medicare & Medicaid Services (CMS) issued
                  a Program Memorandum (Transmittal AB-03-037) that focused on

OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S       i
E X E C U T I V E                       S U          M M A R Y


                   Part B mental health services. The memorandum explained
                   Medicare’s guidelines for payment for Part B mental health services.
                   CMS instructed its contractors to disseminate the information to
                   Medicare providers.

                   The Office of Inspector General (OIG) has issued several reports that
                   identified vulnerabilities in Medicare payments for mental health
                   services. In 2001, OIG issued “Medicare Part B Payments for Mental
                   Health Services” (OEI-03-99-00130), which found that Medicare allowed
                   $185 million for inappropriate outpatient mental health services. In
                   response, CMS issued the aforementioned Program Memorandum.
                   Methodology
                   In 2005, we conducted a medical record review of a random sample of
                   452 Part B mental health services rendered by 422 billing
                   practitioners in 2003, the most recent year for which we had Medicare
                   claims data. Licensed psychiatrists reviewed the practitioners’
                   medical records we received to determine the medical necessity of the
                   sampled services. Certified professional coders reviewed the medical
                   records to determine proper coding. In addition, we interviewed 372
                   of the 422 billing practitioners for the sampled services.


                   FINDING
                   Forty-seven percent of the mental health services allowed by
                   Medicare in 2003 did not meet program requirements, resulting in
                   approximately $718 million in improper payments. Medicare allowed
                   approximately $2.14 billion in 2003 for Part B mental health services;
                   47 percent of these services did not meet Medicare requirements.
                   Miscoded and undocumented services accounted for 26 and
                   19 percent of all mental health services in 2003, respectively. Medically
                   unnecessary services and services that violated the “incident to” rule each
                   accounted for 4 percent of all mental health services in 2003. Some
                   services had more than one error, resulting in overlapping errors in our
                   error rate calculation.


                   RECOMMENDATION
                   We recommend that CMS revise, expand, and reissue its 2003 Program
                   Memorandum on Part B mental health services with an increased
                   emphasis on proper documentation and coding. In addition, the
                   memorandum should emphasize the requirements for mental health
                   services billed “incident to.”

 OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   ii
                  In addition to this recommendation, we have forwarded information
                  on the miscoded, undocumented, and medically unnecessary services
                  identified in our sample to CMS for appropriate action.


                   AGENCY COMMENTS
                  In its comments on the draft report, CMS concurred with our
                  recommendation. CMS noted that significant information on medical
                  documentation requirements and “incident to” requirements is available
                  on the CMS Web site and from its contractors. Nevertheless, CMS will
                  consolidate this information for providers of mental health services.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   iii
Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i




         INTRODUCTION ................................................ 1




         FINDING ......................................................... 8

                    Improperly paid services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                    A: CPT codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                    B: Previous OIG reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                    C: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                    D: Sampling plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    E: Confidence intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                    F: Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

I N T R O D       U C T               I O N
Δ     I N T R O D U C T I O N                                                     



                  OBJECTIVE
                  To determine the extent to which Medicare Part B mental health
                  services met Medicare’s coverage criteria and were coded correctly
                  in 2003.


                  BACKGROUND
                  Medicare Part B Mental Health Services: Profile of 2003 Claims
                  Medicare and its beneficiaries paid approximately $2.14 billion for
                  Medicare’s Supplementary Medical Insurance (Part B) mental health
                  services in 2003.1 Allowed amounts2 for mental health services have
                  increased steadily since 1998; the median annual increase was
                  4.6 percent. Approximately 4 million Medicare beneficiaries received
                  Part B mental health services in 2003. The number of beneficiaries who
                  received mental health services increased modestly from 1998 to 2003;
                  the median annual increase was 1 percent. In 2003, beneficiaries were
                  allowed an average of $538 for mental health services.3
                  In 2003, approximately 38 percent of the mental health services
                  consisted of individual psychotherapy. Another 38 percent of the
                  services consisted of psychiatric diagnostic interview examinations,
                  central nervous system testing, and evaluation and management (E&M)
                  services; and 17 percent of the services consisted of medication
                  management.4 The remaining services, approximately 7 percent,
                  consisted of other mental health services, including group and
                  electroconvulsive therapy.




                  1 This total includes all claims with psychiatric codes (Current Procedural Terminology
                    (CPT) codes 90801–90899) in addition to claims for E&M and central nervous system tests
                    that are supported by a mental disorder diagnosis. All estimates are based on Office of
                    Inspector General (OIG) analysis of a 1-percent sample of Medicare National Claims
                    History.
                  2 “Allowed amount” is the total Medicare-approved amount for a service, which includes

                     the amount reimbursed to the provider and the beneficiary copayment.
                  3 At the time of our review, 2003 was the most recent full year of Medicare claims data

                     available.
                  4 Medication management may be billed under one of two CPT codes: 90862 (psychiatric

                     pharmacologic management) or M0064 (brief office visit for the sole purpose of
                     monitoring or changing drug prescriptions used in the treatment of mental,
                     psychoneurotic, and personality disorders).




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   1
I N T R O D       U C T               I O N


                  Overall, psychiatrists billed for 50 percent of the services, clinical
                  psychologists billed for 17 percent, and licensed clinical social workers
                  billed for 11 percent. Nurses, multispecialty group practices, and
                  various physician specialties billed for the remaining 22 percent.
                  Psychiatrists typically billed for procedures involving E&M services,
                  while psychologists and clinical social workers were more likely to bill
                  for individual and group psychotherapy.
                  Medicare Coverage for Part B Mental Health Services
                  General provisions of the Social Security Act (the Act) govern Medicare
                  reimbursement of all services, including mental health services. Section
                  1862(a)(1)(A) of the Act states that no payment may be made for
                  services that “are not reasonable and necessary for the diagnosis or
                  treatment of illness or injury or to improve the functioning of a
                  malformed body member.” Section 1833(e) requires that providers
                  furnish “such information as may be necessary to determine the
                  amounts due” to receive Medicare payment. Related regulations at
                  42 CFR §§ 411.15(k)(1) and 424.5(a)(6) implement these provisions of
                  the Medicare law.

                  Medicare Part B covers physicians’ services, outpatient care, and other
                  services not covered by Medicare’s Hospital Insurance (Part A). In
                  general, beneficiaries are responsible for coinsurance of 20 percent of
                  the approved amount for most Part B services; however, the Act limits
                  payments to 62.5 percent of the expenses (Medicare-approved amount)
                  for mental health services.5 Specifically, the law limits payments for
                  services in connection with the treatment of “mental, psychoneurotic,
                  and personality disorders.”

                  Section 1848(a)(1) of the Act established the physician fee schedule as
                  the basis for Medicare reimbursement for all physician services
                  beginning in January 1992. Section 1848(c)(5) of the Act required the
                  Secretary of the Department of Health and Human Services to develop a
                  uniform coding system for all physician services. The American Medical
                  Association’s (AMA) “Current Procedural Terminology” (CPT) maintains
                  a numeric coding system for physicians’ services, including mental
                  health services. In 1983, the Centers for Medicare & Medicaid Services


                  5 Section 1833(c) of the Act. This is the Outpatient Mental Health Treatment Limitation,
                     which typically results in a beneficiary copayment of 50 percent of the Medicare-approved
                     amount. See the companion report, “Carrier Determination of Copayments for Medicare
                     Mental Health Services” (OEI-09-04-00221).




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   2
I N T R O D       U C T               I O N


                  (CMS) adopted CPT as part of Medicare’s Healthcare Common
                  Procedure Coding System (HCPCS) and mandated that providers use
                  HCPCS to report physicians’ services to Medicare.

                  CMS issues binding guidance to its carriers6 in the form of
                  claims-processing manuals and memoranda. In 2003, CMS issued a
                  Program Memorandum7 to its carriers concerning Part B mental health
                  services. The memorandum includes:

                             Medicare’s guidelines for payment of Part B mental health
                             services including qualification requirements for mental health
                             providers; incident to services; reasonable and necessary services;
                             reasonable expectation of improvement; general principles of
                             medical record documentation; documentation guidelines for
                             evaluation and management (E/M) services involving a general
                             psychiatric examination or the single system psychiatric
                             examination; and documentation guidelines for psychiatric
                             diagnostic or evaluative interview procedures, psychiatric
                             therapeutic procedures, central nervous system assessment, and
                             health and behavior assessment.8
                  CMS instructed carriers to include the memorandum in their next
                  bulletin to providers and to post it on their Web sites or bulletin boards.

                  To bill Medicare for mental health services, practitioners must be
                  qualified to perform the services in the States in which they render
                  services. Medicare permits the following practitioners to bill Medicare
                  independently for mental health services, as long as the services are
                  included in their States’ scopes of practice:
                  o physicians (including psychiatrists),9

                  o psychologists,10

                  o licensed clinical social workers,11


                  6 Section 1842 of the Act authorizes CMS to contract with private companies, called
                     carriers, to process and pay physician and nonphysician practitioner Part B claims within
                     a given service area, which usually follows State lines.
                  7 CMS, Transmittal AB-03-037, Change Request 2520, Provider Education Article:

                     “Medicare Payments for Part B Mental Health Services,” March 28, 2003.
                   8 Ibid.
                   9 42 CFR § 410.20.
                  10 42 CFR § 410.71.
                  11 42 CFR § 410.73.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   3
I N T R O D       U C T               I O N


                  o	 nurse practitioners,12

                  o	 clinical nurse specialists,13 and

                  o	 physician assistants.14

                  “Incident to” Rule
                  Medicare allows physicians to bill for mental health services performed
                  by their staffs and furnished to patients if the services are rendered
                  “incident to” the physicians’ professional services.15 These services may
                  be performed by auxiliary personnel if the services are:
                  o	 furnished in a noninstitutional setting to noninstitiutional patients;

                  o	 an integral, though incidental, part of the service of a physician (or
                      other practitioner) in the course of diagnosis or treatment of an
                      injury or illness;
                  o	 commonly furnished without charge or included in the bill of a
                      physician (or other practitioner);
                  o	 of a type that are commonly furnished in the office or clinic of a
                      physician (or other practitioner); and
                  o	 furnished under the direct supervision of the physician (or other
                      practitioner). The physician (or other practitioner) directly
                      supervising the auxiliary personnel need not be the same physician
                      (or other practitioner) upon whose professional service the “incident
                      to” service is based.
                  Outpatient Mental Health Services and Psychiatric Disorders
                  Outpatient mental health services commonly rendered16 to Medicare
                  beneficiaries include:
                  o	 psychotherapy: treatment for mental illness and behavioral
                      disturbances in which the clinician establishes a professional
                      contract with the patient and, through definitive therapeutic
                      communication, attempts to alleviate emotional disturbances,




                  12 42 CFR § 410.75. 

                  13 42 CFR § 410.76. 

                  14 42 CFR § 410.74. 

                  15 Section 1861(s)(2)(A) of the Act; 42 CFR § 410.26. 

                  16 Based on OIG analysis of a 1-percent sample of Medicare claims for 2003. 





OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   4
I N T R O D       U C T               I O N


                      reverse or change maladaptive patterns of behavior, and encourage
                      personality growth and development;17
                  o	 psychiatric pharmacologic management: including prescription,
                      use, and review of medication with no more than minimal medical
                      psychotherapy;18 and
                  o	 E&M services: office visits, hospital visits, and consultations that
                      typically involve at least one of three key components—history,
                      physical examination, and medical decisionmaking. E&M services
                      can vary based on these three key components, and reimbursement
                      is based on one of five levels.19 (See Appendix A for median
                      reimbursements for the various E&M services and all other services
                      that we reviewed.)

                  Psychiatric disorders that occur most frequently for Medicare
                  beneficiaries20 include:
                  o	 affective psychoses (e.g., major depressive disorder and bipolar
                      affective disorder),
                  o	 senile psychotic conditions,

                  o	 schizophrenic disorders, and

                  o	 neurotic disorders (e.g., neurotic depression and adjustment
                      reaction).

                  These disorders are described in more detail in AMA’s “International
                  Classification of Diseases, 9th Revision” (ICD-9) and the American
                  Psychiatric Association’s “Diagnostic Statistical Manual, Third
                  Edition – Revised” (DSM-III-R).
                  Previous Office of Inspector General Work
                  Since 1996, the Office of Inspector General (OIG) has issued several
                  audits and evaluation reports concerning Medicare mental health
                  services. Most recently, in 2001, OIG issued “Medicare Part B
                  Payments for Mental Health Services” (OEI-03-99-00130). Based on a
                  medical review of mental health services rendered in 1998, OIG
                  reported that approximately 31 percent of the claims were paid


                  17 AMA, “Current Procedural Terminology, Professional Edition,” 2003, p. 353. 

                  18 Ibid, p. 355. 

                  19 Ibid, p. 5. 

                  20 Based on OIG analysis of a 1-percent sample of Medicare claims for 2003. 





OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   	   5
I N T R O D       U C T               I O N


                  inappropriately, including 23 percent that were not medically necessary.
                  Medicare allowed $185 million for these inappropriate outpatient
                  mental health services. OIG recommended that CMS target certain
                  mental health services for prepayment and postpayment review,
                  promote provider awareness of requirements for Part B mental health
                  services, and work with carriers and mental health professionals to
                  develop a list of psychological assessments that can be billed correctly
                  under CPT code 96100.

                  In response to the 2001 report, CMS issued a Program Memorandum
                  (mentioned previously on page 3 of this report) in 2003 to assist carriers
                  in “informing the provider community about requirements for payment
                  of Part B mental health services.”21
                  Other reports have focused on mental health services rendered in
                  institutions. (See Appendix B for a listing and summary of other OIG
                  reports.)
                  Companion Report
                  This is the second of two reports on Medicare Part B mental health
                  services rendered in 2003. The first report, issued in October 2006,
                  determined the extent to which Medicare carriers consistently calculate
                  beneficiary copayments for mental health services and correctly
                  calculate copayments for services rendered to beneficiaries diagnosed
                  with Alzheimer’s disease or related disorders (“Carrier Determination of
                  Copayments for Medicare Mental Health Services” (OEI-09-04-00221)).


                  METHODOLOGY
                  Our methodology consisted of a medical necessity and coding review
                  of a random sample of Part B mental health services rendered in
                  2003 and structured interviews of the billing practitioners for the
                  sampled services.

                  We conducted a medical review of a stratified random sample of
                  452 mental health services for 422 billing practitioners rendered
                  during calendar year 2003, the most recent full year of Medicare
                  claims data available at the time of our review. We requested by mail
                  complete medical records from each billing practitioner of the sampled


                  21 CMS, Transmittal AB-03-037, Change Request 2520, “Provider Education Article:
                     Medicare Payments for Part B Mental Health Services,” March 28, 2003, p. 1.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   6
I N T R O D       U C T               I O N


                  mental health services. We contacted each billing practitioner in our
                  sample either by mail or by telephone. The response rate was
                  99 percent.

                  We contracted with three licensed psychiatrists and two certified
                  professional coders to conduct a medical record review using a
                  protocol OIG developed in collaboration with the reviewers. The
                  psychiatrists reviewed the medical records to determine whether the
                  services were medically necessary. Certified professional coders
                  determined the appropriate CPT codes for the sampled services based
                  on the medical record documentation.
                  We attempted to interview by telephone each of the 422 billing
                  practitioners in our sample. We used a standardized interview
                  instrument to determine whether the billing practitioners (1) rendered
                  the sampled services personally or (2) billed for the services “incident to”
                  their professional services. We interviewed 372 of the 422 billing
                  practitioners for an 88-percent response rate.

                  See Appendix C for a more detailed explanation of the methodology and
                  Appendix D for details on the sampling plan.
                  Standards
                  This study was conducted in accordance with the “Quality Standards for
                  Inspections” issued by the President’s Council on Integrity and Efficiency
                  and the Executive Council on Integrity and Efficiency.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   7
    Δ        F I N D I N G                          


                                                               Medicare allowed approximately
Forty-seven percent of the mental health services              $2.14 billion in 2003 for Part B mental
        allowed by Medicare in 2003 did not meet               health services. Forty-seven percent of
              program requirements, resulting in               these services did not meet Medicare
approximately $718 million in improper payments                requirements. (Confidence intervals
                                                               for all statistics are in Appendix E.)
                         As a result, Medicare allowed approximately $718 million in improper
                         payments in 2003 for mental health services. Table 1 groups the
                         improperly paid services in our sample by type of error and gives
                         statistical projections of these errors to the population.

                                   Table 1: Improperly Paid Medicare Part B Mental Health Services—2003

                                                                                            Sample                             Projected
                                                                                                           Allowed                         Allowed
                             Type of Error                                   Services                                   Services
                                                                                                           Amount                          Amount
                             Miscoded                                               140                 $4,998.38          26%       $245 million
                             Undocumented                                             83                $5,813.00          19%       $356 million
                             Medically Unnecessary                                    24                $2,037.24            4%      $106 million
                             “Incident to” Violations                                 16                $1,350.23            4%      $72 million*
                             (Overlapping Errors)                                   (29)             ($1,175.68)           (5%)     ($62 million*)

                                 Total                                              234               $13,023.17          47%**    $718 million**
                          * The confidence intervals for these estimates have at least 50-percent relative precision. 

                          **Numbers do not add due to rounding. 

                          Source: OIG analysis of medical review results, 2006.



                         Miscoded. In 2003, Medicare allowed approximately $701 million for
                         Part B mental health services that were billed with codes that did not
                         accurately reflect the services provided. If these services had been
                         coded properly, Medicare would have allowed only $456 million, yielding
                         an overpayment of $245 million for miscoded services.

                         Of the 140 miscoded services within our sample, 133 were “upcoded,”
                         6 were “downcoded,” and 1 was miscoded with no effect on payment.
                         (See Table 2 on the next page.) Upcoded services are billed at a level
                         higher than the actual level of the service performed. For example, a
                         20- to 30-minute individual psychotherapy service billed as a
                         45- to 50-minute service is an upcoded service. Conversely, a
                         downcoded service is billed at a lower level than the actual level of the
                         service performed.




       OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S                                8
F   I N D I N G 





                                                      Table 2: Miscoded Services in the Sample

                                                                                                                                   Miscoded
                    Service Type (as billed)                                Upcoded           Downcoded                                       Total
                                                                                                                     (No effect on payment)

                    Individual Psychotherapy                                         73                      2                           0      75

                    E&M Services                                                     58                      1                           0      59
                    Psychiatric Diagnostic Interview
                                                                                       2                     0                           1       3
                    Examinations

                    Medication Management                                              0                     3                           0       3

                      Total                                                        133                       6                           1     140

                  Source: OIG medical review results, 2006.


                      Almost all miscoded individual psychotherapy claims lacked
                      documentation to justify the time billed. Individual psychotherapy can
                      be billed as one of three time periods: 20 to 30 minutes, 45 to 50
                      minutes, or 75 to 80 minutes. Because reimbursement of psychotherapy
                      services is based on face-to-face time spent with the patient,
                      practitioners are required to document in the medical record the time
                      spent with the patient.22 However, in the majority of the records for
                      miscoded services, no time was documented. As a result, our reviewers
                      determined that the services should have been billed at the lowest
                      possible time period. For some practitioners who claimed to have
                      furnished E&M services in conjunction with psychotherapy, our
                      reviewers found no evidence for those E&M services on the same dates
                      of service. Therefore, the practitioners should have used codes for
                      services consisting solely of psychotherapy. For other miscoded
                      psychotherapy services, reviewers found that the actual services were
                      not psychotherapy but totally different services, such as E&M services,
                      medication management,23 psychological evaluation, and group
                      psychotherapy.




                      22 Section 1833(e) requires that providers furnish “such information as may be necessary to
                         determine the amounts due” to receive Medicare payment.
                      23 Medication management may be billed under one of two codes: 90862 (psychiatric

                         pharmacologic management) or M0064 (brief office visit for the sole purpose of
                         monitoring or changing drug prescriptions used in the treatment of mental,
                         psychoneurotic, and personality disorders).




OEI-09-04-00220       M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S                                9
F   I N D I N G 




                                                   Table 3: Miscoded E&M Services in the Sample

                                                                                                                                   Percentage
                                                                                                       Number of Miscoded
                                                                                                                                  of Miscoded
                     Type of Error                                                                       Services Billed as
                                                                                                                                Services Billed
                                                                                                           E&M in Sample
                                                                                                                              as E&M Services


                     Downcoded                                                                                           1                  2%

                            Not an E&M Service                                                                           1                  2%

                     Upcoded                                                                                            58                  98%

                            By 1 level                                                                                  26                  44%

                            By 2 levels                                                                                 19                  32%

                            By 3 levels                                                                                  1                  2%

                           Established patient, not new patient
                           or
                           Subsequent visit, not initial visit                                                           5                  8%

                            Not an E&M Service                                                                           5                  8%

                            Wrong place of service                                                                       2                  3%
                         Total miscoded E&M services                                                                    59               100%

                  Source: OIG medical review results, 2006.


                  Most of the miscoded E&M services in our sample were billed at a
                  higher level than the medical record documentation supported.24 (See
                  Table 3.) For example, a practitioner billed for an E&M service that
                  indicated that the decisionmaking was of moderate complexity;
                  however, reviewers found the documentation supported decisionmaking
                  that was straightforward or of low complexity.25 Reviewers found that
                  some services were billed incorrectly because the services were rendered
                  during a subsequent visit rather than an initial visit. Reimbursement
                  rates for subsequent E&M visits are less than those for initial visits.
                  Other miscoded E&M services should have been billed as psychiatric
                  diagnostic interview examinations, consultations, or psychotherapy,


                  24 E&M services levels vary based on (1) the extent of the patient history obtained,
                     (2) the extent of the examination performed, and (3) the complexity of the medical
                     decisionmaking. (AMA, “Current Procedural Terminology, Professional Edition,” 2003,
                     pp. 5–7.)
                  25 The complexity of medical decisionmaking for E&Ms can be billed at one of four levels:
                     straightforward, low, moderate, or high. (AMA, “Current Procedural Terminology,
                     Professional Edition,” 2003, p. 7.)




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S                         10
F   I N D I N G


                  which are reimbursed at a lower rate. In addition, some E&M services
                  were miscoded because the place of service (e.g., inpatient) did not
                  match the place of service indicated in the medical record (e.g.,
                  outpatient).

                  Three psychiatric diagnostic interview examinations in our sample were
                  miscoded. These examinations are “history, mental status, and a
                  disposition, and may include communication with family or other
                  sources, ordering and medical interpretation of laboratory or other
                  medical diagnostic studies.”26 Documentation for these miscoded
                  services supported a brief medication management visit, indicated that
                  the practitioner rendered psychotherapy in the home, or did not show
                  evidence that the provider used “interactive” psychiatric diagnostic
                  interview techniques (although the practitioner coded the interview as
                  interactive). Two of these services should have been reimbursed at a
                  lower rate, and the rate for the third would not have changed.

                  Three medication management services in our sample were downcoded.
                  Documentation for two of these services supported an E&M code, and
                  documentation for the third indicated that the practitioner furnished
                  more than minimal psychotherapy during the visit and should have
                  billed under a psychotherapy code. These services should have been
                  reimbursed at a higher rate.
                  Undocumented. Medicare allowed approximately $356 million for
                  undocumented services. For more than half of these services, we
                  received no documentation for the sampled dates of service. This
                  includes services for which we received no medical records whatsoever
                  from the billing practitioner. For the other undocumented services, we
                  received inadequate documentation to determine the medical necessity
                  of the services, or the medical records indicated that a practitioner saw
                  the patient on the date of service billed; however, the documentation
                  was insufficient to determine a billable code.

                  Although some cases of missing documentation may be attributable to
                  billing errors (e.g., putting the wrong date on the claim form), others
                  may represent services not rendered. Claims for services that lack
                  sufficient documentation to show that care was provided do not meet
                  the requirements of section 1833(e) of the Act.



                  26 AMA, “Current Procedural Terminology, Professional Edition,” 2003, p. 353.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   11
F   I N D I N G


                  Medically unnecessary. Medical reviewers determined that these
                  services, which represent $106 million allowed by Medicare, were not
                  medically necessary because:
                  o	 The psychotherapy session was too long.

                  o	 The patient could not benefit from the psychotherapy.

                  o	 The sessions, such as number of sessions per week, were too
                      frequent.
                  o	 No clinical problem was documented in the record.

                  o	 The patient cancelled the session.

                  “Incident to” violations. Ten of the sixteen “incident to” services that were
                  billed in error were furnished in a skilled nursing facility or a hospital
                  and therefore violated Federal regulations.27 The remaining six services
                  were furnished without the level of supervision required by
                  regulations,28 which require that “incident to” services be furnished
                  under direct supervision.29 The billing practitioners reported to us that
                  these services were furnished under general supervision.30 The
                  personnel who rendered these services included:
                  o	 physician assistant,

                  o	 nurse practitioner,

                  o	 licensed clinical social worker,

                  o	 licensed professional counselor,

                  o	 licensed psychiatric assistant, or

                  o	 psychology intern.


                  27 Pursuant to 42 CFR § 410.26(b)(1), “incident to” services “must be furnished in a
                     noninstitutional setting to noninstitutional patients.” Pursuant to 42 CFR § 410.26(a)(5),
                     noninstitutional settings include “all settings other than a hospital or skilled nursing
                     facility.”
                  28 42 CFR § 410.26(b)(5).
                  29 Pursuant to 42 CFR § 410.26(a)(2), “direct supervision” means the level of supervision

                     defined in 42 CFR § 410.32(b)(3)(ii), which provides that “[d]irect supervision in the office
                     setting means the physician must be present in the office suite and immediately available
                     to furnish assistance and direction throughout the performance of the procedure. It does
                     not mean that the physician must be present in the room when the procedure is
                     performed.”
                  30 “General supervision means the procedure is furnished under the physician’s overall
                     direction and control, but the physician’s presence is not required during the performance
                     of the procedure” (42 CFR § 410.32(b)(3)(i)).




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   12
Δ    RR EE CC OO MM MM EE NN DD AA TT I I OO NN SS
Δ

                  Almost half of the Medicare Part B mental health services allowed in
                  2003 did not meet program requirements, resulting in an estimated
                  $718 million in improper payments. Incorrect coding and poor
                  documentation make Medicare and its beneficiaries vulnerable to
                  overpayments for Part B mental health services, accounting for more
                  than $600 million of the $718 million paid improperly in 2003. The
                  remainder of improper payments was for services that were not
                  medically necessary or violated the “incident to” rule.

                  The 2003 CMS Program Memorandum31 on Part B mental health
                  services referenced other CMS guidance documents on requirements for
                  medical record documentation and “incident to” services. However, it
                  did not provide specific guidelines for documentation of face-to-face time
                  with patients or the requirement that “incident to” services be provided
                  under direct supervision of a physician and only billed for patients in
                  noninstitutional settings.32 Therefore, we recommend that CMS revise,
                  expand, and reissue its 2003 Program Memorandum on mental health
                  services to include:

                     1. an increased emphasis that “CPT and ICD-9-CM codes reported
                        on health insurance claim forms should be supported by
                        documentation in the medical record,”33 including the requirement
                        that documentation must be adequate to determine the Medicare
                        amounts due (e.g., documentation for psychotherapy services
                        should include the amount of face-to-face time spent with the
                        patient);

                     2. an emphasis that adequate documentation in the medical record
                        must be present when billing for psychotherapy services furnished
                        with E&M services;

                     3. an increased emphasis that medical record documentation must
                        support the level of E&M code billed; and

                     4. an increased emphasis on the requirements for “incident to”
                        services, especially the (1) supervision requirements and

                  31 CMS, Transmittal AB-03-037, Change Request 2520, “Provider Education Article:
                     Medicare Payments for Part B Mental Health Services,” March 28, 2003.
                  32 Section 1861(s)(2)(A) of the Act.
                  33 CMS, Transmittal AB-03-037, Change Request 2520, “Provider Education Article:
                     Medicare Payments for Part B Mental Health Services,” March 28, 2003.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   13
R   E C O         M M E N D A T                            I O N


                                (2) the requirement that “incident to” can be billed only for
                                patients in noninstitutional settings.34
                        In addition to this recommendation, we have forwarded information
                        on the miscoded, undocumented, and medically unnecessary services
                        identified in our sample to CMS for appropriate action.


                     AGENCY COMMENTS
                     In its comments on the draft report, CMS concurred with our
                     recommendation. CMS noted that significant information on medical
                     documentation requirements and “incident to” requirements is available
                     on the CMS Web site and from its contractors. Nevertheless, CMS will
                     consolidate this information for providers of mental health services.
                     For the full text of CMS’s comments, see Appendix F.




                     34 Section 1861(s)(2)(A) of the Act.




OEI-09-04-00220      M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   14
Δ            A P P E N D I X ~ A



                   CPT Codes Included in the Medical Review
        Includes Codes for the Sampled Claims and Codes Used to Correct the Miscoded Claims
                                                                                                                  2003 Median
                                                                                                                     Medicare
       CPT Code                                                    Procedure
                                                                                                                      Allowed
                                                                                                                      Amount
                                                                   Psychiatry


         90801    Psychiatric diagnostic interview exam                                                               $140.13

                  Interactive psychiatric diagnostic exam, using play equipment/play
         90802    devices/language interpreter/other                                                                   $88.36

         90804    Individual psychotherapy; office, 20–30 minutes                                                      $54.86

                  Individual psychotherapy; office, 20–30 minutes with Evaluation &
         90805    Management (E&M)                                                                                     $68.25

         90806    Individual psychotherapy; office, 45–50 minutes                                                      $89.69

         90807    Individual psychotherapy; office, 45–50 minutes with E&M                                            $105.04

         90808    Individual psychotherapy; office, 75–80 minutes                                                     $120.00

         90809    Individual psychotherapy; office, 75–80 minutes with E&M                                            $141.79

         90816    Individual psychotherapy; hospital, 20–30 minutes                                                    $62.93

         90817    Individual psychotherapy; hospital, 20–30 minutes with E&M                                           $70.00

         90818    Individual psychotherapy; hospital, 45–50 minutes                                                    $95.17

         90819    Individual psychotherapy; hospital, 45–50 minutes with E&M                                          $103.65

                  Family psychotherapy (conjoint psychotherapy) (with patient
         90847    present)                                                                                            $108.48

         90853    Group psychotherapy (other than multiple-family group)                                               $29.14

         90862    Psychiatric medication management with minimal psychotherapy                                         $48.38

         90870    Electroconvulsive therapy (with monitoring); single seizure                                          $97.86

         90899    Unlisted psychiatric service/procedure                                                               $67.10




OEI-09-04-00220    M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S           15
A   P     P E N D         I X          ~          A           





                                        Central Nervous System Assessments/Tests

                 96100    Psychological testing, with interpretation and report, per hour                                   $81.52

                          Neurobehavioral status exam, with interpretation and report,
                 96115    per hour                                                                                          $74.04

                                               Evaluation and Management Services

                          Office/outpatient visit, new patient, three key components:
                          detailed history, detailed exam, medical decisionmaking of low
                 99203    complexity                                                                                        $88.97

                          Office/outpatient visit, new patient, three key components:
                          comprehensive history, comprehensive exam, medical
                 99205    decisionmaking of high complexity                                                                $163.64

                          Office/outpatient visit, established patient, not requiring physician
                 99211    presence, typically 5 minutes                                                                     $19.72

                          Office/outpatient visit, established patient, which requires at least
                          two of these three key components: problem-focused history,
                 99212    problem-focused exam, straightforward medical decisionmaking                                      $34.60

                          Office/outpatient visit, established patient, which requires at least
                          two of these three key components: expanded problem history,
                 99213    expanded problem exam, medical decisionmaking of low complexity                                   $48.81

                          Office/outpatient visit, established patient, which requires at least
                          two of these three key components: detailed history, detailed
                 99214    exam, medical decisionmaking of moderate complexity                                               $77.16

                          Office/outpatient visit, established patient, which requires at least
                          two of these three key components: comprehensive history,
                 99215    comprehensive exam, medical decisionmaking of high complexity                                    $113.37

                          Initial hospital care, which requires these three key components:
                          detailed or comprehensive history, detailed or comprehensive
                          exam, medical decisionmaking that is straightforward or of low
                 99221    complexity                                                                                        $63.12

                          Initial hospital care, which requires these three key components:
                          comprehensive history, comprehensive exam, medical
                 99222    decisionmaking of moderate complexity                                                            $105.62

                          Initial hospital care, which requires these three key components:
                          comprehensive history, comprehensive exam, medical
                 99223    decisionmaking of high complexity                                                                $148.08




        OEI-09-04-00220     M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S        16
A   P   P E N D       I X              ~          A


             99231
                      Subsequent hospital care, which requires at least two of these
                      three key components: problem-focused interval history,
                      problem-focused exam, medical decisionmaking that is
                      straightforward or of low complexity                                                              $31.95

                      Subsequent hospital care, which requires at least two of these
                      three key components: expanded problem-focused interval history,
                      expanded problem exam, medical decisionmaking of moderate
             99232    complexity                                                                                        $53.21

                      Subsequent hospital care, which requires at least two of these
                      three key components: detailed interval history, detailed exam,
             99233    medical decisionmaking of high complexity                                                         $77.47

             99238    Hospital discharge day management; up to 30 minutes                                               $66.71

             99239    Hospital discharge day management; longer than 30 minutes                                         $91.19

                      Office consultation, which requires these three key components:
                      detailed history, detailed exam, medical decisionmaking of low
             99243    complexity                                                                                       $112.59

                      Office consultation, which requires these three key components:
                      comprehensive history, comprehensive exam, medical
             99244    decisionmaking of moderate complexity                                                            $160.85

                      Office consultation, which requires these three key components:
                      comprehensive history, comprehensive exam, medical
             99245    decisionmaking of high complexity                                                                $209.11

                      Initial inpatient consultation, which requires these three key
                      components: expanded problem-focused history, expanded
             99252    problem-focused exam, straightforward medical decisionmaking                                     $ 68.29

                      Initial inpatient consultation, which requires these three key
                      components: detailed history, detailed exam, medical
             99253    decisionmaking of low complexity                                                                 $ 93.65

                      Initial inpatient consultation, which requires these three key
                      components: comprehensive history, comprehensive exam, medical
             99254    decisionmaking of moderate complexity                                                            $134.74

                      Initial inpatient consultation, which requires these three key
                      components: comprehensive history, comprehensive exam, medical
             99255    decisionmaking of high complexity                                                                $188.52

                      Follow-up inpatient consultation, which requires at least two of
                      these three key components: problem-focused interval history,
                      problem-focused exam, medical decisionmaking that is
             99261    straightforward or of low complexity                                                              $21.49




    OEI-09-04-00220     M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S        17
A   P    P E N D            I X              ~            A          




                        Follow-up inpatient consultation, which requires at least two of
                        these three key components: expanded problem-focused interval
                        history, expanded problem-focused exam, medical decisionmaking
            99262       of moderate complexity                                                                            $44.10
                        Follow-up inpatient consultation, which requires at least two of
                        these three key components: detailed interval history, detailed
            99263       exam, medical decisionmaking of high complexity                                                   $66.29

                        Emergency department visit, which requires these three key
                        components: expanded problem-focused history, expanded
                        problem-focused exam, medical decisionmaking of moderate
            99283       complexity                                                                                        $57.84

                        Emergency department visit, which requires these three key
                        components: detailed history, detailed exam, medical
            99284       decisionmaking of moderate complexity                                                             $91.10

                        Emergency department visit, which requires these three key
                        components: comprehensive history, comprehensive exam, medical
            99285       decisionmaking of high complexity                                                                $143.60

                        Nursing facility care, which requires these three key components:
                        detailed interval history, comprehensive exam, medical
            99302       decisionmaking of moderate to high complexity                                                     $83.97

                        Nursing facility care, which requires these three key components:
                        comprehensive history, comprehensive exam, medical
            99303       decisionmaking of moderate to high complexity                                                    $103.80

                        Subsequent nursing facility care, which requires at least two of
                        these three key components: problem-focused interval history,
                        problem-focused exam, medical decisionmaking that is
            99311       straightforward or of low complexity                                                              $32.67

                        Subsequent nursing facility care, which requires at least two of
                        these three key components: expanded problem-focused interval
                        history, expanded problem-focused exam, medical decisionmaking
            99312       of moderate complexity                                                                            $52.22

                        Subsequent nursing facility care, which requires two of these three
                        key components: detailed interval history, detailed exam, medical
            99313       decisionmaking of moderate to high complexity                                                     $73.77

                        Rest home visit, established patient, which requires at least two of
                        these three key components: expanded problem-focused interval
                        history; expanded problem-focused exam; medical decisionmaking
            99332       of moderate complexity                                                                            $50.27
                                                     Brief Medication Management

           M0064        Visit for drug monitoring                                                                         $23.12

        Source: OIG analysis of 2003 Medicare claims, 2006.




OEI-09-04-00220           M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S        18
Δ         A P P E N D I X ~ B                                            


                                                    Office of Inspector General Reports
                                                         on Mental Health Services


                  o	 In 1996, the Office of Inspector General (OIG) issued “Mental
                      Health Services in Nursing Facilities” (OEI-02-91-00860), which
                      reviewed Part B mental health services in nursing homes. OIG
                      found that approximately 32 percent of services were unnecessary,
                      and another 16 percent were questionable.
                  o	 As a followup to the 1996 report, OIG issued “Medicare Payments
                      for Psychiatric Services in Nursing Homes: A Follow-up”
                      (OEI-02-99-00140) in January 2001. As stated in the follow-up
                      report, approximately 27 percent of the services were not medically
                      necessary, 9 percent were not documented, and 3 percent were
                      medically questionable.
                  o	 In 1998, OIG issued “Five-State Review of Partial Hospitalization
                      Programs at Community Mental Health Centers” (A-04-98-02145).
                      Based on this audit, approximately 92 percent of reviewed claims
                      were not allowable or were questionable. Furthermore, many
                      beneficiaries who received services had no history of mental illness.
                      Other beneficiaries suffered from mental conditions, such as
                      dementia, that would have prevented them from benefiting from
                      the intensive program. Additionally, some of the treatment
                      sessions involved only recreational activities.
                  o	 In 2000, OIG issued “Ten-State Review of Outpatient Psychiatric
                      Services at Acute Care Hospitals” (A-01-99-00507). Based on this
                      audit, approximately 58 percent of the Medicare payments for
                      psychiatric services rendered in acute care hospitals in the
                      10 States were not allowable or were unsupported. The hospitals’
                      claims were documented inadequately, and services were not
                      reasonable or necessary. In addition, unlicensed personnel
                      rendered some services.
                  o	 Also in 2000, OIG issued “Review of Outpatient Psychiatric Services
                      at Psychiatric Hospitals for Calendar Year 1998” (A-01-99-00530).
                      This audit identified that approximately 42 percent of the
                      outpatient and partial hospitalization services in specialty
                      psychiatric hospitals in 10 States were paid inappropriately.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   19
Δ         A P P E N D I X ~ C                                            


                                                                                Methodology

                  Sample Selection
                  We conducted a medical review of a stratified random sample of mental
                  health services rendered during calendar year 2003, the most recent full
                  year of Medicare claims data available to us at the time of our review.
                  We selected our sample from the Part B Medicare National Claims
                  History. (See Appendix D for details.) To compile this sample, we
                  selected individual line item services that appeared in the National
                  Claims History. We limited our universe to mental health services,
                  which we defined as:
                  o	     psychiatric procedures (according to the American Medical
                         Association’s (AMA) “Current Procedural Terminology,” 2003);
                  o	     central nervous system test procedures supported by a psychiatric
                         disorder diagnosis; or
                  o	     evaluation and management (E&M) services supported by a
                         psychiatric disorder diagnosis.

                  For sampling purposes, we defined “service” as the unique combination
                  of:
                  o	     Medicare beneficiary health identification claim number,

                  o	     unique provider identification number,

                  o	     date of service, and
                  o	     procedure code.

                  Some of these services contained multiple units. In these cases, we
                  reviewed each individual unit. Therefore, our unit of analysis for this
                  medical review is “service-unit,” which we defined as the individual unit
                  associated with a single line-item claim. For example, a single line-item
                  claim for psychotherapy may consist of two units. For purposes of our
                  medical review, this line-item claim would result in two service-units in
                  our sampling frame.

                  The sampling frame consisted of approximately 29.2 million
                  service-units rendered in 2003, representing approximately $2.1 billion
                  allowed by Medicare. To improve our estimations of improper
                  payments, we stratified the population by allowed amount and then
                  selected 425 services. These services represented 455 service-units.
                  In our sample, 3 of the 425 providers were under investigation and were


OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   20
A   P   P E N D          I X ~              C


                        excluded from this review. Therefore, our final sample consisted of
                        422 services, 422 practitioners, and 452 service-units. To simplify the
                        presentation of our findings, we refer to service-units as services. The
                        table below defines the strata and corresponding data for the sample
                        design.


                    Basic Sample Design*
                                                                                                            Population                   Sample
                    Stratum                     Medicare Allowed Amount
                                                                                                  (Line-Item Services)       (Line-Item Services)
                    1                      Less than or equal to $65.00                                         14,265,228                   125

                    2                                          $65.01–$125.00                                   12,768,731                   225

                    3                                     More than $125.00                                      2,202,167                    75

                        Total                                                                                   29,236,126                   425

                  Source: Office of Inspector General, 2006.
                  *See Appendix D for more details.


                        Medical Record Request
                        We requested by mail complete medical records from each billing
                        practitioner of the sampled mental health services. To ensure that we
                        obtained adequate records to determine the medical necessity of the
                        services, we requested records that included services rendered
                        6 months prior to the sampled date of service through the date of the
                        request.35 We allowed the billing practitioners 2 weeks from the date of
                        the initial request to send us the records. We made as many as two
                        additional written attempts followed by two telephone calls to obtain
                        the records. For some billing practitioners, we requested the records
                        three times by mail and twice by telephone.

                        Despite our repeated attempts to obtain medical records, 6 of the 422
                        billing practitioners did not produce the requested documents. We
                        categorized the sample units associated with these six billing
                        practitioners as undocumented because we were able to contact the
                        billing practitioner, but the practitioner did not supply the medical
                        records.




                        35 The record request occurred from December 2004 through May 2005.




OEI-09-04-00220         M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S                         21
A   P   P E N D    I X ~              C


                  Medical Review
                  We contracted with three licensed psychiatrists and two certified
                  professional coders to conduct a medical record review using a protocol
                  developed in collaboration with the reviewers. The psychiatrists
                  reviewed the medical records to determine whether the service-units
                  were medically necessary. The psychiatrists’ criteria included, but were
                  not limited to, Medicare’s coverage criteria (e.g., section 1862(a)(1)(A) of
                  the Act), the American Psychiatric Association’s “Practice Guidelines,”
                  and their own professional judgment. Certified professional coders
                  determined the appropriate Common Procedural Terminology (CPT)
                  codes for the sampled services based on the medical record
                  documentation provided. The professional coders’ criteria included the
                  definitions in AMA’s CPT for 2003. The reviewers recorded their
                  determinations on standardized medical review instruments.
                  Test sample review. To ensure uniformity among the reviewers and to
                  test our medical review instrument, we conducted a preliminary review
                  of 117 service-units, which we randomly selected using the same criteria
                  we used for the final sample. (See “Sample Selection” on page 20.) We
                  received records for 48 service-units. Both coders and psychiatrists
                  reviewed all 48 service-units. We analyzed the results of the test review
                  and presented them to the reviewers. Reviewers discussed and resolved
                  any inconsistencies in the results and offered suggestions for revisions
                  of the medical review instrument. The 117 test sample units were not
                  included in the review results and are not included in this report.
                  Final sample review. Reviewers used a standardized medical review
                  instrument to analyze the medical records. One psychiatrist and one
                  coder reviewed each medical record. The medical records for the final
                  sample were assigned randomly to the reviewers, and we analyzed the
                  completed medical review instruments to determine uniformity among
                  the reviewers.
                  Structured Interviews
                  We attempted to interview by telephone each of the 422 billing
                  practitioners in our sample. We used a standardized interview
                  instrument to determine whether the billing practitioners (1) rendered
                  the sampled services personally or (2) billed for the services “incident to”
                  their professional services. We asked practitioners who personally
                  furnished the services they billed “incident to” and what level of




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   22
A   P   P E N D    I X ~              C


                  supervision they provided to the ancillary staff (e.g., general, direct,
                  or personal).36
                  We interviewed by telephone 372 of the 422 practitioners in our
                  sample, resulting in an 88-percent response rate. Two practitioners
                  refused to be interviewed, 1 was deceased at the time we requested an
                  interview, and the remaining 47 could not be reached for interviews
                  after a minimum of three attempts. For purposes of reporting an
                  error rate related to “incident to” services, we assumed that the
                  practitioners we did not interview rendered the sampled services
                  personally or complied with the “incident to” rules regarding the
                  direct supervision requirement.




                  36 See 42 CFR § 410.32(b)(3) for definitions of the three levels of supervision.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   23
                       Δ             A P P E N D I X ~ D
                                                                                            Medical Review Sample Flowchart

                       The sampling plan OIG used to select a stratified random sample of Medicare Part B mental health services in 2003
                                                             Sample frame
                                                         Services = 29.2 million
                                                         Allowed = $2.1 billion

                                                                                                                                                Stratified random sample:
                                                      Psychiatric procedures                                                                                                             Minus 3 providers
                                                     CPT codes = 90801-90899                                                                        425 total services                  under investigation
                                                             & M0064                                                                                                                      Total sampled
                                                      Services = 19.2 million                                                                   Allowed Amt.     Sampled                    services =
                                                       Allowed = $1.4 billion                                                                                                                   422
                                                         66.7% of services                                                                       <=$65.00 …………….125
                                                                                                                                                 $65.01-$125.00……...225
       All 2003 Part B                                                                                                                           >$125.00………………75

       Services* =                                    Central nervous system
                                                                                                                                                                                           Total number of
       1.25 billion                                     tests & assessments
                                                     with psychiatric diagnosis                                                                                                             service-units
                                                     CPT codes = 96100-96117                                                                                                             represented by the
       Allowed =                                                                                                                                                                          sampled services
                                                       ICD-9 = 290.xx-319.xx
       $81.8 billion                                     Services = 198,765                                                                                                             Total service-units =
                                                          0.7% of services                                                                                                                       452



                                                                                                                                                    *For sampling purposes, we
                                                                                                                                                    defined a “service” as the unique
                                                          E&M services
                                                                                                                                                    combination of:
                                                   with psychiatric diagnosis
                                                                                                                                                        • patient identification
                                                   CPT codes = 99201-99499 &
                                                                                                                                                           number,
                                                     ICD-9 = 290.xx-319.xx
                                                     Services = 9.8 million                                                                             • physician identification
                                                     Allowed = $642 million                                                                                number,
                                                        33.6% of services                                                                               • date of service, and
Source: OIG analysis of 2003
                                                                                                                                                        • procedure code.

Medicare claims data, 2006.    OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S                            24
        Δ               A P P E N D I X ~ E


                                                 Statistical Confidence Intervals

                                                                                 Sample Units
                                                                                                                      Estimate of
                                                   Sample                       Found Not To                                               95% Confidence
  Statistic                                                                                                          Projection to
                                                     Size                       Meet Medicare                                                     Interval
                                                                                                                         Universe
                                                                                Requirements

  Percentage of services that were
                                                            452                                          24                          4%                  2% to 6%
  medically unnecessary

  Amount allowed for medically
                                                            452                                          24                 $106 million   $61.7 to $150 million
  unnecessary services

  Percentage of services that were
                                                            452                                        140                           26%           22% to 30%
  miscoded (net)

  Allowed amount for miscoded
                                                            452                                        140                  $245 million   $205 to $287 million
  services

  Percentage of services that were
                                                            452                                          83                          19%           15% to 23%
  undocumented

  Allowed amount for
                                                            452                                          83                 $356 million    $281 to $431 million
  undocumented services

  Percentage of services that were
                                                            452                                        234                           47%           42% to 53%
  paid improperly

  Allowed amount for all
                                                            452                                        234                  $718 million    $635 to $801 million
  improperly paid services

Source: OIG medical review results, 2006.




            OEI-09-04-00220           M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S                25 

Δ            A P P E N D I X ~ F                                              



                                Agency Comments




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   26 

A   P   P E N D    I X               ~            F          





OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   27 

Δ     A C K N O W L E D G M E N T S                                                                        



                  This report was prepared under the direction of Paul A. Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco regional office, and Deborah W. Harvey, Assistant Regional
                  Inspector General.

                  Steven Zerebecki served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the San
                  Francisco office who contributed include Silvia Chin, Robert Gibbons,
                  Scott Hutchison, Thomas Purvis, and China Tantameng; and central
                  office staff who contributed include Doris Jackson and Tricia Davis.

                  We would like to thank our medical review contractor and the
                  individual psychiatrists and coders who performed the review, as well
                  as the carrier staff who assisted us in obtaining contact information for
                  the physicians whose claims were selected for review.




OEI-09-04-00220   M E D I C A R E PAY M E N T S   FOR   2 0 0 3 PA R T B M E N TA L H E A LT H S E R V I C E S   28
